* s

No.

-7585
IN THE

SUPREME COURT OF THE UNITED STATES
HLED

MAI? / 9 202,

Q, Setose r PETITIONER
vs.

2£s^2mcmK

State of Kansas, RESPONDENTS.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted to leave to proceed in forma pauperis, in the
following courts:
Geary County District Court
Kansas Supreme Court
In accordancw with U.S. Supreme Court Rule 39 the petitioner was appointed counsel
under Kansas law, K.S.A. 22-4501 et seq.
In accordance with 28 USCS § 1746 I declare under the penalty of perjury that the
foregoing is true and correct. Executed on n\o*<\\

RECEIVED
MAR 2 5 2021

ISgiUcSgS

